                                                                             Report No. DODIG-2014-092



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 1 1 , 2 0 1 4




                     Navy and Marine Corps Have
                     Weak Procurement Processes
                     for Cost‑reimbursement Contract
                     Issuance and Management




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Navy and Marine Corps Have Weak Procurement
                                Processes for Cost‑reimbursement Contract Issuance
                                and Management


July 11, 2014                                      Finding (cont’d)

Objective                                          We also completed a subsequent review of 29 contracts at Naval
                                                   Sea Systems Command Headquarters and Quantico Marine
We are required to perform this audit in           Corps Base approximately 1 year after our initial site visit and
accordance with the FY 2009 National Defense       determined that minor improvements occurred with the contract
Authorization Act, section 864, “Regulations       issuance processes.
on the Use of Cost Reimbursement Contracts.”
Our objective was to determine whether the
Navy and Marine Corps complied with interim        Recommendations
Federal Acquisition Regulation (FAR) revisions     We recommend that Naval Sea Systems Command Headquarters
on the use of cost-reimbursement contracts.        and Naval Supply Center–San Diego emphasize FAR revisions to
This is the fourth in a series of reports on DoD   contracting personnel; include a statement on the contracting
compliance with the interim rule for the use of    officer’s representative acceptance forms that the representative
cost-reimbursement contracts. We reviewed          acknowledge and return the form with signature; and include
a nonstatistical sample of 170 contracts           documentation in the contract files discussing an assessment of
(77 basic contracts and 93 orders) out of          the contractor’s accounting system. In addition, Naval Sea Systems
9,973 Navy and Marine Corps contract actions,      Command Headquarters should establish better communication
valued at over $32 billion from March 17, 2011,    between the requiring component and contracting personnel.
through February 29, 2012.
                                                   We recommend that Marine Corps Systems Command

Finding                                            emphasize FAR revisions to contracting personnel for the use of
                                                   cost-reimbursement contracts; establish better communication
Of the 170 contracts reviewed, valued at about     between the requiring component and contracting personnel; and
$7.7 billion, Navy and Marine Corps contracting    develop controls to ensure that a contracting officer’s representative
personnel did not consistently implement           is assigned to each contract at award.
the FAR revisions, called the interim rule, for
134 contracts, valued at about $7.54 billion.
Contracting personnel issued contracts that        Management Comments and
did not follow the interim rule because they       Our Response
were not clear about interim rule requirements
                                                   We received comments from the Navy and Marine Corps in response
or were unaware of the interim rule. As a
                                                   to a draft report. The Navy and Marine Corps will revise policies
result, contracting personnel continue to
                                                   and processes to better adhere to the interim rule requirements.
issue cost-reimbursement contracts that may
                                                   Comments addressed all specifics of the recommendations, and
increase DoD’s contracting risks because
                                                   no further comments are required.
cost-reimbursement contracts provide less
incentive for contractors to control costs.


Visit us at www.dodig.mil


                                                                        DODIG-2014-092 (Project No. D2013-D000CG-0211.000) │ i
           Recommendations Table
                                                                              Recommendations       No Additional
                                        Management                            Requiring Comment   Comments Required
             Deputy Director of Contracting Policy, Naval Sea Systems                             1.a, 1.b, 1.c, 1.d, 1.e,
             Command Headquarters                                                                 and 1.f
             Chief of the Contracting Office, Naval Supply Center–San Diego                       2.a, 2.b, and 2.c
             Assistant Commander of Contracts, Marine Corps                                       3.a, 3.b, 3.c, 3.d, and
             Systems Command                                                                      3.e




ii │ DODIG-2014-092 (Project No. D2013-D000CG-0211.000)
                                   INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                      July 11, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
		 TECHNOLOGY, AND LOGISTICS
	              NAVAL INSPECTOR GENERAL

SUBJECT:	 Navy and Marine Corps Have Weak Procurement Processes for Cost-Reimbursement 		
	         Contract Issuance and Management (Report No. DODIG-2014-092)

We are providing this report for review and use. Of the 170 contracts reviewed, valued at about
$7.7 billion, Navy and Marine Corps contracting personnel did not consistently implement the
interim rule for 134 contracts, valued at about $7.54 billion. We are required to perform this audit
in accordance with the FY 2009 National Defense Authorization Act, Section 864, “Regulation on
the Use of Cost Reimbursement Contracts.” This is the fourth in a series of audit reports on DoD
Compliance with the interim rule for the use of cost-reimbursement contracts. The final rule was
published in the Federal Register on March 2, 2012, without significant changes that would affect
our audit objective.

We considered management comments on a draft of this report when preparing the final report.
Comments from the Navy and Marine Corps addressed all specifics of the recommendations and
conformed to the requirements of DoD Directive 7650.3; therefore, we do not require additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to Deborah L. Culp
at (703) 604-9335 (DSN 664-9335).




	                                                Amy J. Frontz
	                                                Principal Assistant Inspector General
	                                                   for Auditing




                                                                                             DODIG-2014-092 │ iii
                  Contents
                  Introduction
                  Objective _________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Interim Rule Requirements and Our Interpretation__________________________________________2
                  Contracts Initially Reviewed____________________________________________________________________5
                  Supplemental Contract Review_________________________________________________________________5
                  The Small Business Innovation Research Program____________________________________________6
                  Review of Internal Controls_____________________________________________________________________6

                  Finding. The Navy and Marine Corps Inconsistently
                  Implemented the Interim Rule_____________________________________________8
                  More Consistent Documentation Procedures Needed to Fully Implement
                     Federal Acquisition Regulation Revisions_________________________________________________9
                  Approval at Least One Level Above the Contracting Officer for a
                     Cost-Reimbursement Contract Varied by Site_____________________________________________9
                  Justification Documenting the Use of a Cost-Reimbursement Contract
                      Type Varied by Site________________________________________________________________________ 11
                  Documentation to Support Efforts to Transition Subsequent Requirements
                     to Firm-Fixed-Price Contracts Varied by Site____________________________________________ 12
                  Documenting That Adequate Government Resources Were Available to
                     Monitor Award Varied by Site____________________________________________________________ 13
                  Documentation of Adequate Accounting Systems Varied by Site_ _________________________ 15
                  Some Improvements Identified During Subsequent Site Visits_ ___________________________ 16
                  Firm-Fixed-Price Contracts Properly Classified_____________________________________________ 18
                  Conclusion______________________________________________________________________________________ 18
                  Recommendations, Management Comments, and Our Response__________________________ 19




iv │ DODIG-2014-092
Contents (cont’d)
Appendixes
Appendix A. Scope and Methodology________________________________________________________ 26
	   Universe and Sample Information_______________________________________________________ 27
	   Review of Documentation and Interviews_______________________________________________ 28
	   Use of Computer-Processed Data_ _______________________________________________________ 29
	   Use of Technical Assistance_______________________________________________________________ 29
	   Prior Coverage_____________________________________________________________________________ 29
Appendix B. Federal Acquisition Circular 2005-50 Issued March 16, 2011______________ 31
Appendix C. Contract Compliance With Interim Rule Requirements _____________________ 36
Appendix D. Contract Compliance With Interim Rule Requirements–Supplemental ____ 45

Management Comments
Naval Sea Systems Command _________________________________________________________________ 47
Naval Supply Systems Command_____________________________________________________________ 51
Marine Corps Systems Command_____________________________________________________________ 55

Acronyms and Abbreviations______________________________________________ 59




                                                                                                     DODIG-2014-092 │ v
                                                                                                                                     Introduction




Introduction
Objective
Our objective was to determine whether Navy and Marine Corps contracting personnel
complied with interim Federal Acquisition Regulation (FAR) revisions regarding the
use of cost-reimbursement1 contracts. Specifically, we determined whether Navy and
Marine Corps contracting personnel implemented the FAR revisions, called the interim
rule, by documenting:

              •	 that approval for the cost-reimbursement contract was at least one level
                  above the contracting officer;

              •	 that the use of cost-reimbursement contracts was justified;

              •	 how the requirements under the contract could transition to firm-fixed
                  price in the future;

              •	 that Government resources were available to monitor the cost-reimbursement
                  contract; and

              •	 that contractors had an adequate accounting system in place at
                  contract award.

We also determined whether Navy and Marine Corps personnel were intentionally
misclassifying contracts as firm-fixed price to avoid the increased cost-reimbursement
contract documentation requirements.

We issued separate reports for each of the Services and issued one report on Missile
Defense Agency and the Defense Microelectronics Activity contracts, and we plan to
issue a summary report. This is the fourth report in a series of audits and includes
contracts issued by the Navy and Marine Corps at four sites. See Appendix A for the
scope and methodology and prior coverage related to the objective and this series
of reports.


Background
Section 864 of the FY 2009 National Defense Authorization Act, P.L. 110-417, required
FAR revisions regarding the documentation of decisions and approvals necessary


	1	
      We use “cost reimbursement” to describe any type of contract other than firm-fixed-price contracts throughout the report,
      such as labor hour and time and materials contracts.




                                                                                                                                  DODIG-2014-092 │ 1
Introduction



                 before issuance of other than firm-fixed-price contracts.      It also requires that the
                 DoD Inspector General to audit DoD’s compliance with the changes within 1 year of
                 policy issuance. Federal Acquisition Circular (FAC) 2005-50, issued March 16, 2011,
                 implemented the required revisions on an interim basis. See Appendix B for a copy
                 of the interim rule. This interim rule was effective immediately and was not subject
                 to public comment before issuance. FAC 2005-50 amended FAR Part 7, “Acquisition
                 Planning;” FAR Part 16, “Types of Contracts;” and FAR Part 42, “Contract Administration
                 and Audit Services.”     The final rule was published in the Federal Register on
                 March 2, 2012, without significant changes that would affect our audit objective.


                 Interim Rule Requirements and Our Interpretation
                 We divided our objective into five areas based on the interim rule. We needed to
                 interpret parts of the interim rule for each of these areas to determine what we
                 would accept as adequate documentation in the contract file. These five areas include
                 (1) approval level; (2) justification; (3) transition strategy; (4) adequate resources;
                 and (5) adequate accounting system. Contracting personnel were required by the
                 interim rule to include the justification, approval, and transition areas of our objective
                 in the acquisition planning documentation.      For each of these areas, we accepted
                 documentation anywhere in the contract file because some of the acquisition plans
                 were completed before the interim rule.       Acquisition planning is the coordinated,
                 combined, and integrated efforts of all personnel affected by the acquisition into a plan
                 that timely fulfills the need at a fair and reasonable cost to the Government. Contracting
                 personnel were not required by the interim rule to document whether adequate
                 resources or an accounting system was available specifically within the acquisition
                 planning documentation.


                 Approval
                 Contracting personnel were required by the interim rule to obtain approval of
                 a cost-reimbursement contract at least one level above the contracting officer.
                 FAC 2005-50 states “the contracting officer shall document the rationale for selecting
                 the contract type in the written acquisition plan and ensure that the plan is approved
                 and signed at least one level above the contracting officer.” Contracting personnel were
                 required by the interim rule to document this approval in the acquisition plan. We
                 accepted any documentation in the contracting files that stated the contract type was
                 cost-reimbursement and was reviewed and signed by an official above the contracting
                 officer as evidence of having met the interim rule requirement.




2 │ DODIG-2014-092
                                                                                                Introduction



Justification
Contracting personnel were required by the interim rule to justify the use of a
cost-reimbursement contract. FAC 2005-50 states:

           [a]cquisition personnel shall document the acquisition plan with
           findings that detail the particular facts and circumstances, ([for
           example], complexity of the requirements, uncertain duration of the
           work, contractor’s technical capability and financial responsibility,
           or adequacy of the contractor’s accounting system), and associated
           reasoning essential to support the contract type selection. . . .


Contracting personnel were required by the interim rule to document the justification
in the acquisition plan.    We determined that Navy and Marine Corps contracting
personnel followed the interim rule by completing a determination and finding
memorandum on contract type for inclusion in the contract file or included a discussion
of research and development efforts with results that cannot be precisely described
in advance. A determination and finding memorandum is a form of written approval
by an authorized official that is required by statute or regulation as a prerequisite to
taking certain contract actions.


Transition Strategy
Contracting personnel were required by the interim rule to document the potential
of   cost-reimbursement    contracts    to   transition   to   firm-fixed-price    contracts.
FAC 2005-50 states:

           For each contract (and order) contemplated, discuss the strategy
           to transition to firm-fixed-price contracts to the maximum extent
           practicable. During the requirements development stage, consider
           structuring the contract requirements, [for example], contract line
           items (CLINS), in a manner that will permit some, if not all, of the
           requirements to be awarded on a firm-fixed-price basis, either in the
           current contract, future option years, or follow-on contracts.


We interpreted this section of the interim rule to require an explanation of the potential
to transition to a firm-fixed-price contract or a justification as to why the contract
could not be transitioned. Contracting personnel were required by the interim rule
to document this strategy in the acquisition plan. In addition to their documentation,
we determined that the interim rule was followed if they issued contracts that had
both firm-fixed price and cost-reimbursement contract line-item numbers along with




                                                                                            DODIG-2014-092 │ 3
Introduction



                 a statement in the contract file that allowed the contract line-item numbers to be used
                 when appropriate. We also determined a contract met the intent of the interim rule if
                 the award could not be transitioned, for various reasons, to a firm-fixed-price contract.


                 Adequate Resources
                 Contracting personnel were required by the interim rule to document that adequate
                 resources are available to manage a cost-reimbursement contract. FAC 2005-50 states:

                            A cost-reimbursement contract may be used only when—Adequate
                            Government resources are available to award and manage a contract
                            other than firm-fixed-priced (see 7.104(e)) including—(i) Designation
                            of at least one contracting officer’s representative (COR) qualified in
                            accordance with 1.602–2 has been made prior to award of the contract
                            or order.


                 We interpreted this section of the interim rule to require evidence of a contracting
                 officer’s representative (COR) or similarly qualified individual assigned to the contract.
                 A COR is nominated in writing and authorized by the contracting officer to perform
                 specific administrative and technical elements on the contract. We reviewed the COR
                 nomination letter, signed acceptances by the CORs, and COR training documents.
                 Contracting personnel were not required by the interim rule to document this
                 evidence in any specific location of the contract file. Although assigning a COR to the
                 contract identifies an individual to oversee a contract, it does not always indicate that
                 adequate Government resources are available to monitor the contract as required by
                 the interim rule. We identified the assignment of a COR on the contracts rather than
                 testing the adequacy of the CORs assigned.


                 Adequate Accounting System
                 Contracting personnel were required by the interim rule to determine the adequacy
                 of the contractor’s accounting system during the entire period of performance for
                 cost-reimbursement contracts. FAC 2005-50 states that the contractor’s accounting
                 system should be adequate during the entire period of contract performance. Based on
                 this guidance, we required documentation from the contracting officer that concluded
                 the accounting system was adequate. At a minimum, we required a statement in the
                 file that the accounting system was adequate based on information from the Defense
                 Contract Audit Agency or Defense Contract Management Agency officials responsible
                 for monitoring the contractor. We also accepted the contracting officer’s conclusion
                 or other documents, such as rate verifications and e-mails, from the Defense Contract
                 Audit Agency and Defense Contract Management Agency as adequate documentation.




4 │ DODIG-2014-092
                                                                                                         Introduction



We focused our audit on identifying whether the contracting officer determined if
the accounting system was adequate at contract award, rather than during the entire
period of performance, as required by the interim rule.


Contracts Initially Reviewed
Our data queries in the Federal Procurement Data System–Next Generation identified
9,973 cost-reimbursement, labor-hour, or time-and-materials contract actions, valued
at over $32 billion, on 2,412 contracts, issued by the Navy and Marine Corps from
March 17, 2011, through February 29, 2012.                  These figures included the value
of all options and any firm-fixed-price portions of the contracts.                To perform the
review, we selected four Navy and Marine Corps sites based on a combination of
cost-reimbursement award amounts and number of cost-reimbursement contracts
issued.      The sites visited were: (1) Space and Naval Warfare Systems Command
(SPAWAR), Charleston, South Carolina; (2) Naval Sea Systems Command (NAVSEA)
Headquarters, Washington, D.C.; (3) Naval Supply Systems Command (NAVSUP),
San Diego, California; and (4) Quantico Marine Corps Base (QMCB), Virginia.                       At
Quantico, we specifically reviewed contracts issued by Marine Corps Systems
Command. At the four sites we reviewed a nonstatistical sample of 170 contracts, with
cost-reimbursement portions, valued at about $7.7 billion. Table 1 shows the number
of basic contracts, the task or delivery orders reviewed, and the contract value at
each site.

Table 1. Contracts Reviewed

                                               Task/Delivery                        Contract Value
             Site           Basic Contracts                           Total
                                                   Order                             (in billions)*
 SPAWAR–Charleston                  7                35                 42              $0.338
 NAVSEA Headquarters               29                10                 39                3.753
 NAVSUP–San Diego                  29                21                 50                3.547
 QMCB                              12                27                 39                0.057
  Total                            77                93                170              $7.695
*	Contract value includes potential total of only cost‑reimbursement elements and do not total
  correctly because of rounding.


Supplemental Contract Review
We revisited NAVSEA Headquarters and QMCB in September 2013 to determine whether
improvements were made in the cost-reimbursement contract issuing processes after
our initial site visits from April through July 2012. We nonstatistically sampled from




                                                                                                      DODIG-2014-092 │ 5
Introduction



                 a universe of contracts using criteria similar to our original review, but covering a
                 period of issuance from February 1, 2013, through July 31, 2013.          We reviewed
                 14 contracts at NAVSEA Headquarters and 15 contracts at QMCB as part of this
                 supplemental review, with a total value of about $9.59 billion, mostly from NAVSEA
                 Headquarters contracts. These contracts are not included in Table 1 and the results
                 of the supplemental review are presented separately in the Finding section of this
                 report. See Appendix D for specific information on our supplemental contract review.


                 The Small Business Innovation Research Program
                 The implementation of the interim rule is affected by other DoD contracting initiatives,
                 such as the Small Business Innovation Research (SBIR) program. The SBIR program
                 is a three-phase program that encourages domestic small businesses to engage in
                 Federal research and development that has the potential for commercialization. The
                 SBIR program was developed to increase small business opportunity in federally
                 funded research and development, stimulate high-tech innovation, and increase
                 private-sector commercialization. The SBIR program was established under the Small
                 Business Innovation Development Act of 1982; the U.S. Small Business Administration
                 serves as the coordinating agency. Phase I of the program is designed for exploration
                 of the technical merit or feasibility of an idea or technology.      A firm-fixed-price
                 contract is almost always used for this phase. Phase II, typically a cost-plus-fixed-fee
                 contract, consists of the research and development work, in which the developer also
                 evaluates commercialization potential. During Phase III, the developer moves toward
                 commercialization of the innovation. SBIR program funds cannot be used for Phase III.
                 We did not target or avoid SBIR contracts as part of our nonstatistical sample because
                 the interim rule does not include an exception for SBIR contracts.

                 The SBIR Desk Reference for Contracting and Payment states that according to
                 FAR Subpart 16.3, “Cost-Reimbursement Contracts,” a cost-reimbursement contract
                 may be used only when the contractor’s accounting system is adequate for determining
                 costs applicable to the contract and requires Government surveillance during the
                 performance of the contract.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We identified internal




6 │ DODIG-2014-092
                                                                                             Introduction



control weaknesses for implementing the changes required by the interim rule
regarding the use of cost-reimbursement contracts. The four sites visited did not
consistently update local procedures or other guidance for issuing and administering
cost-reimbursement contracts.      Specifically, the Navy and Marine Corps did not
always have procedures to approve or justify the use of cost-reimbursement contracts
properly and did not always document the potential of cost-reimbursement contracts to
transition to firm-fixed-price contracts. Navy and Marine Corps contracting personnel
did not consistently verify that personnel acknowledged their duties regarding
contract oversight. Additionally, the Navy, Marine Corps, and other DoD components
responsible for monitoring contractor accounting systems did not always verify the
adequacy of the contractor’s accounting system at contract award. We will provide a
copy of the final report to the senior official in charge of internal controls in the Navy
and Marine Corps.




                                                                                         DODIG-2014-092 │ 7
Finding




                 Finding
                 The Navy and Marine Corps Inconsistently
                 Implemented the Interim Rule
                 Of the 170 contracts reviewed, valued at about $7.7 billion, Navy and Marine Corps
                 contracting personnel did not consistently implement the interim rule for 134 contracts,
                 valued at about $7.54 billion. Navy and Marine Corps contracting personnel fully met
                 the interim rule on 36 of the 170 contracts, valued at about $151 million.

                 Specifically, Navy and Marine Corps contracting personnel did not:

                          •	 Obtain approval for the use of a cost-reimbursement contract for
                            39 contracts valued at about $91 million, of the 170 contracts.

                          •	 Justify the use of a cost-reimbursement contract for 50 contracts, valued at
                            about $459 million, of the 170 contracts.

                          •	 Document the possibility of a transition to a firm-fixed-price contract for
                            61 contracts, valued at about $1.14 billion, of the 170 contracts.

                          •	 Ensure adequate Government resources available for 85 contracts, valued at
                            about $6.94 billion, of the 170 contracts.

                          •	 Verify the adequacy of the contractor’s accounting system for 56 contracts,
                            valued at about $3.35 billion, of the 170 contracts.

                 Navy contracting personnel stated they issued contracts that did not meet the
                 interim rule because they were unaware of the interim rule requirements. A Marine
                 Corps official attributed many non-compliant issues to a lack of clarity regarding
                 the interim rule requirements. Specifically for monitoring, they also did not receive
                 acknowledgement from the COR that they were aware of their duties and able to
                 monitor the contract.     Additionally, we were provided contract files at NAVSEA
                 Headquarters that did not contain the necessary information to document compliance
                 with the interim rule.

                 As a result, Navy and Marine Corps contracting personnel continue to issue
                 cost-reimbursement contracts that may inappropriately increase the Navy and Marine
                 Corps’ contracting risks because cost-reimbursement contracts provide less incentive
                 for contractors to control costs.




8 │ DODIG-2014-092
                                                                                                    Finding



More Consistent Documentation Procedures
Needed to Fully Implement Federal Acquisition
Regulation Revisions
Navy and Marine Corps contracting personnel fully implemented FAR revisions
on 36 of the 170 contracts, valued at about $151 million.             SPAWAR–Charleston
contracting personnel were responsible for 26 of the Navy and Marine Corps contracts
that fully met the interim rule.         Navy and Marine Corps contracting personnel
implemented portions of the interim rule for the other 134 contracts, but they did
not consistently include documentation in the contract files to meet the interim rule.
Contracting personnel documented elements of the interim rule in the acquisition plan,
business clearance memorandum, COR nomination letters, or in the determination
and findings of contract type. We interpreted the interim rule to apply to task or
delivery orders issued after the effective date of the interim rule (March 16, 2011),
regardless of the timing of the basic contract award. See Appendix C for tables showing
interim rule compliance by contract.          The Deputy Director of Contracting Policy,
Naval Sea Systems Command Headquarters; Chief of the Contracting Office, Naval Supply
Center–San Diego; and the Assistant Commander of Contracts, Marine Corps Systems
Command should emphasize the importance of the Federal Acquisition Regulation
revisions to contracting personnel for the use of cost-reimbursement contracts in
guidance and training courses.


Approval at Least One Level Above the Contracting
Officer for a Cost-Reimbursement Contract Varied
by Site
Contracting   personnel       at   SPAWAR–Charleston     and
                                                                           Navy
NAVSUP–San     Diego        generally   met   the   interim
                                                                       and Marine
rule   requirement     to     approve   the   use   of   a          Corps contracting
cost-reimbursement contract at least one level                   personnel documented
above the contracting officer, whereas contracting              proper approval for the
                                                               use of cost-reimbursement
personnel at NAVSEA Headquarters and QMCB did                   contracts on 131 of 170
not always meet the interim rule. Navy and Marine                  contracts, valued at
Corps contracting personnel documented proper                       about $7.6 billion.
approval for the use of cost-reimbursement contracts on
131 of 170 contracts, valued at about $7.6 billion. Table 2
shows the total contracts reviewed at each site and the number
of those contracts that did not meet this section of the interim rule.




                                                                                           DODIG-2014-092 │ 9
Finding



                 Table 2. Results of Approval at Least One Level Above the Contracting Officer
                                 Site                  Total Contracts          Did Not Meet Interim Rule
                      SPAWAR–Charleston                      42                              2
                      NAVSEA Headquarters                    39                            21
                      NAVSUP–San Diego                       50                              1
                      QMCB                                   39                            15
                       Total                                170                            39


                 NAVSEA Headquarters contracting personnel did not meet the interim rule
                 requirement to document approval of a cost-reimbursement contract one level above
                 the contracting officer for 21 of the 39 contracts, valued at about $77.8 million. NAVSEA
                 contracting personnel stated that shipbuilding contracts were on a cost-reimbursement
                 basis; therefore, they did not document approval in many cases. They also stated that
                 many of their contracts were issued under broad agency announcements related to the
                 SBIR program, which meant that the acquisition planning was conducted before the
                 contract award and that the contract type was approved because the program consists
                 of cost contracts for research and development. Although the program suggests the
                 use of certain types of contracts, contracting officers should still document the need
                 to issue a cost-reimbursement contract as required by the interim rule. The Federal
                 Register, volume 77, number 42, (2012) discussed comments obtained in response
                 to the cost-reimbursement interim rule and formalized the revisions at that time.
                 One commenter recommended that the final rule exempt research and development
                 contracts from the requirements; however, the response explained that there were no
                 exemptions for research and development contracts under the Duncan Hunter National
                 Defense Authorization Act for fiscal year 2009. The Deputy Director of Contracting
                 Policy, Naval Sea Systems Command Headquarters should develop procedures to
                 ensure that all cost-reimbursement contracts are approved at least one level above
                 the contracting officer.

                 QMCB contracting personnel did not meet the interim rule requirement to document
                 approval of cost-reimbursement contracts one level above the contracting officer for
                 15 of the 39 contracts, valued at about $11.2 million. QMCB contracting personnel
                 used multiple determination and finding templates to complete the contract issuance
                 process. We reviewed some determination and findings memorandums for contract
                 type and verified that they did not include a section to document review above the
                 contracting officer. The Assistant Commander of Contracts, Marine Corps Systems
                 Command should develop a single template with a section to document approval one
                 level above the contracting officer for cost-reimbursement contracts.



10 │ DODIG-2014-092
                                                                                                    Finding



Justification Documenting the Use of a
Cost-Reimbursement Contract Type Varied by Site
Contracting personnel at SPAWAR–Charleston and NAVSUP–San Diego generally
satisfied the interim rule requirement to justify a cost-reimbursement type contract
whereas contracting personnel at NAVSEA Headquarters and QMCB did not consistently
meet the interim rule requirement.        Contracting personnel met the interim rule
requirement to justify a cost-reimbursement type contract for 120 of the 170 contracts,
valued at about $7.24 billion. However, contracting personnel did not satisfy the interim
rule’s requirement to justify a cost-reimbursement type contract for 50 contracts,
valued at about $459 million, because contracting personnel generally stated that they
were not aware of the interim rule. We accepted documentation of prior acquisition
planning and justification to issue a cost-reimbursement contract. We also interpreted
the interim rule to require justification of contract type regardless of the contract
line-item structure. Table 3 shows the total contracts reviewed at each site and the
number of those contracts that did not meet this section of the interim rule.

Table 3. Justified the Use of a Cost‑reimbursement Contract Type
             Site                     Total Contracts         Did Not Meet Interim Rule
 SPAWAR–Charleston                          42                            2
 NAVSEA Headquarters                        39                           22
 NAVSUP–San Diego                           50                           11
 QMCB                                       39                           15
  Total                                    170                           50


NAVSEA Headquarters contracting personnel did not satisfy the interim rule
requirement to justify a cost-reimbursement type contract on 22 of the 39 contracts,
valued at about $287 million. NAVSEA Headquarters contracting personnel stated
they were unaware of the interim rule requirements. Additionally, they stated that
many of the awards were for the procurement and sustainment of the fleet, which
were generally accepted as cost-reimbursement in nature without further justification
for contract type. Because NAVSEA Headquarters improved to almost full compliance
regarding justification during a subsequent review that we discuss later in the report,
we will not make a recommendation for improvement in this area.




                                                                                          DODIG-2014-092 │ 11
Finding



                 Documentation to Support Efforts to Transition
                 Subsequent Requirements to Firm-Fixed-Price
                 Contracts Varied by Site
                 Contracting personnel at SPAWAR–Charleston and NAVSUP–San Diego generally
                 satisfied the interim rule requirement to document efforts to transition to a
                 firm-fixed-price contract. NAVSEA Headquarters and QMCB generally did not meet
                 the interim rule requirement to document the transition to firm-fixed-price contracts.
                 Contracting personnel met the interim rule requirement to document the efforts
                 to transition to a firm-fixed-price contract for 109 of the 170 contracts, valued at
                 about $6.55 billion. However, contracting personnel did not satisfy the interim rule’s
                 requirement for documenting the efforts to transition to a firm-fixed-price contract
                 for the remaining 61 contracts, valued at about $1.14 billion. Table 4 shows the total
                 contracts reviewed at each site and the number of those contracts that did not meet
                 this section of the interim rule.

                 Table 4. Results of Efforts to Transition Subsequent Contracts to Firm-Fixed Price
                                 Site                   Total Contracts          Did Not Meet Interim Rule
                      SPAWAR–Charleston                       42                             5
                      NAVSEA Headquarters                     39                            27
                      NAVSUP–San Diego                        50                            13
                      QMCB                                    39                            16
                       Total                                 170                            61


                 NAVSEA Headquarters and QMCB did not consistently meet the interim rule requirement
                 to document transition to a firm-fixed-price contract.             NAVSEA Headquarters
                 contracting personnel did not meet the interim rule on 27 of the 39 contracts, valued
                 at about $976 million. QMCB did not meet the rule on 16 of the 39 contracts, valued
                 at about $9.8 million.      NAVSEA Headquarters and QMCB contracting personnel
                 both stated that the lack of awareness of the interim rule was probably the reason
                 that this information was not included in the contract files. The Deputy Director of
                 Contracting Policy, Naval Sea Systems Command Headquarters and the Assistant
                 Commander of Contracts, Marine Corps Systems Command should emphasize the
                 importance of the Federal Acquisition Regulation revisions to contracting personnel
                 for the use of cost-reimbursement contracts and develop checklists and guides that
                 can be used by contracting personnel regarding the extra planning and oversight of
                 cost-reimbursement contracts.




12 │ DODIG-2014-092
                                                                                                     Finding



When visiting other DoD sites as part of this series of audits, we determined two best
practices that could also increase compliance with the interim rule requirement to
have a transition strategy to firm-fixed-price contracts. Many of the sites we visited
that generally complied with this requirement issued hybrid contracts.            A hybrid
contract contains multiple contract line items with different pricing structures so
that the contracting officer may choose whether cost-reimbursement or firm-fixed
price is most appropriate at the time the order was awarded. We recommend that
the Deputy Director of Contracting Policy, Naval Sea Systems Command Headquarters
and the Assistant Commander of Contracts, Marine Corps Systems Command promote
the issuance of more hybrid contracts that contain multiple line items for the same
service or item with different price structure so that contract type can be selected on
each order.        Additionally, we determined that establishing communication links for all
personnel involved throughout the contracting process from establishing requirements
through contract closeout resulted in increased compliance with the interim rule.
We recommend that the Deputy Director of Contracting Policy, Naval Sea Systems
Command Headquarters and the Assistant Commander of Contracts, Marine Corps
Systems Command establish better communication channels between the requiring
component, contracting personnel, and contract monitors to more effectively identify
opportunities to transition away from cost-reimbursement contracts when possible.


Documenting That Adequate Government Resources
Were Available to Monitor Award Varied by Site
Contracting personnel at SPAWAR–Charleston generally
satisfied the interim rule requirement to ensure
that   adequate         Government     resources   were               However,
                                                                    contracting
available     to     monitor   the   award,   whereas            personnel did not
NAVSEA      Headquarters,       NAVSUP–San     Diego,        satisfy the interim rule’s
and QMCB generally did not meet the interim                    requirement to ensure
                                                            that adequate Government
rule requirement. Contracting personnel met
                                                            resources were available to
the interim rule requirement to ensure that                  monitor the award for the
adequate Government resources were available                  remaining 85 contracts,
to monitor the award for 85 of the 170 contracts,                 valued at about
                                                                   $6.94 billion.
valued at about $759 million. However, contracting
personnel did not satisfy the interim rule’s requirement
to ensure that adequate Government resources were available
to monitor the award for the remaining 85 contracts, valued at about $6.94 billion.
Table 5 shows the total contracts reviewed at each site and the number of those
contracts that did not meet this section of the interim rule.



                                                                                           DODIG-2014-092 │ 13
Finding



                 Table 5. Results of Government Resources Available to Monitor Award
                                 Site                 Total Contracts         Did Not Meet Interim Rule
                      SPAWAR–Charleston                     42                            8
                      NAVSEA Headquarters                   39                           31
                      NAVSUP–San Diego                      50                           25
                      QMCB                                  39                           21
                       Total                               170                           85


                 NAVSEA Headquarters contracting personnel did not satisfy the interim rule
                 requirement to ensure that Government resources were available to adequately monitor
                 the contract on 31 of the 39 contracts, valued at about $3.35 billion. We reviewed the
                 contract information provided and were unable to locate this information in the files
                 of the 31 contracts. According to the NAVSEA contracting personnel, a COR should
                 have been designated and documented in most of the 31 contract files. However, they
                 were unable to provide us with any documents in a timely manner that a COR was
                 assigned to the contracts.

                 NAVSUP–San Diego contracting personnel did not satisfy the interim rule requirement
                 to ensure that Government resources were available to adequately monitor the contract
                 on 25 of the 50 contracts, valued at about $3.38 billion. We obtained COR acceptance
                 letters for most of the remaining 25 contracts, but the letters in the contract files
                 were never acknowledged by the COR. To fully meet the interim rule, the contracting
                 officer should have assurance that the COR is aware of their duties and has accepted
                 responsibility regarding the contract oversight. The Deputy Director of Contracting
                 Policy, Naval Sea Systems Command Headquarters and the Chief of the Contracting
                 Office, Naval Supply Center–San Diego should require contracting officers to include
                 acknowledgement with signature on contracting officer’s representative acceptance
                 forms as part of the duties in properly administering contracts.

                 QMCB contracting personnel did not satisfy the interim rule requirement to ensure
                 that Government resources were available to adequately monitor the contract on
                 21 of the 39 contracts, valued at about $13 million.       We determined that QMCB
                 contracting personnel had multiple reasons for not meeting the interim rule on the
                 21 contracts. For a portion of the awards, the contracting officers never assigned a
                 COR because the contract was a SBIR award with a low-dollar value. Within a series
                 of task orders, we obtained a COR acceptance letter specific to a single task order, but




14 │ DODIG-2014-092
                                                                                                     Finding



that letter was included as documentation in multiple task order files, therefore, we
did not accept it as documentation for the series of orders. Additionally, we obtained
some COR letters that were dated significantly after contract award. The Assistant
Commander of Contracts, Marine Corps Systems Command should develop controls
to ensure that a contracting officer’s representative is assigned to each contract at
contract award to meet the requirements of the interim rule.


Documentation of Adequate Accounting Systems
Varied by Site
Contracting personnel at SPAWAR–Charleston generally satisfied the interim rule
requirement to document the adequacy of the contractor’s accounting system, whereas
NAVSEA Headquarters, NAVSUP–San Diego, and QMCB inconsistently met the interim
rule requirement. Contracting personnel met the interim rule requirement to document
the adequacy of the contractor’s accounting system for 114 of the 170 contracts, valued
at about $4.35 billion. However, contracting personnel did not satisfy the interim rule’s
requirement to document the adequacy of the contractor’s accounting system for the
remaining 56 contracts, valued at about $3.35 billion. Table 6 shows the total contracts
reviewed at each site and the number of those contracts that did not meet this section
of the interim rule.

Table 6. Results of Adequate Accounting System in Place
             Site                    Total Contracts           Did Not Meet Interim Rule
 SPAWAR–Charleston                         42                             10
 NAVSEA Headquarters                       39                             14
 NAVSUP–San Diego                          50                             16
 QMCB                                      39                             16
  Total                                   170                             56


NAVSEA Headquarters contracting personnel did not meet the interim rule criteria
to have an adequate accounting system in place on 14 of the 39 contracts, valued at
about $2.69 billion. We reviewed contract files that had a statement that the accounting
system was adequate, but the analysis did not state that the system was adequate to
control a cost-reimbursement contract; therefore, we determined these awards did not
meet the interim rule. Additionally, we reviewed contract files that had no information
about the contractor’s accounting system in the file and also determined they did




                                                                                           DODIG-2014-092 │ 15
Finding



                 not meet the interim rule. We recommend that the Deputy Director of Contracting
                 Policy, Naval Sea Systems Command Headquarters include a section in the business
                 clearance memorandum, or similar document, to annotate the contracting officer’s
                 analysis and data relied on for the assessment of the contractor’s accounting system for
                 cost-reimbursement contracts.

                 NAVSUP–San Diego contracting personnel did not meet the interim rule criteria to
                 have an adequate accounting system in place on 16 of the 50 contracts valued at about
                 $469 million. For 6 of the 16 contracts not meeting the interim rule requirements,
                 we obtained documentation that the contracting officer coordinated with the Defense
                 Contract Audit Agency during the award process, but we determined that there was not
                 sufficient information in the contract files to make an assessment on the contractor’s
                 accounting system. For the remaining awards, we could not determine the contracting
                 officer’s efforts to assess the accounting system. We recommend that the Chief of the
                 Contracting Office, Naval Supply Center–San Diego include a section in the business
                 clearance memorandum, or similar document, to annotate the contracting officer’s
                 analysis and data relied on for the assessment of the contractor’s accounting system for
                 cost-reimbursement contracts.

                 QMCB contracting personnel did not meet the interim rule criteria to have an adequate
                 accounting system in place on 16 of the 39 contracts, valued at about $19.9 million.
                 For five task orders reviewed, we determined that QMCB contracting personnel
                 requested Defense Contract Audit Agency for assistance but did not determine the
                 adequacy of the accounting system before issuing the cost-reimbursement contracts.
                 Most of the remaining contracts were issued without sufficient supporting information
                 in the contract file to determine that the accounting system was adequate at contract
                 award. Because QMCB improved to better compliance regarding an assessment of
                 the accounting system during a subsequent review that we discuss below, we will not
                 make a recommendation for improvement in this area.


                 Some Improvements Identified During Subsequent
                 Site Visits
                 In addition to the original site visits from April through July 2012, the audit team
                 revisited NAVSEA Headquarters and QMCB in September 2013. The purpose of these
                 visits was to update our information by reviewing more recent awards to determine
                 whether the contracting officers made improvements after our original site visits. The
                 contracts reviewed during the subsequent visits were issued from February 1, 2013,
                 through July 31, 2013. The team reviewed a nonstatistical sample of 14 NAVSEA



16 │ DODIG-2014-092
                                                                                                 Finding



Headquarters contracts, valued at about $9.57 billion, and 15 QMCB contracts, valued
at about $17.62 million. The team reviewed the contracts with the same objective as
the original site visits. Additionally, during the subsequent visits, the team requested
any revised training manuals, guidance, checklists, or similar items implemented over
the past year to increase awareness and compliance with these FAR revisions.

NAVSEA Headquarters contracting personnel marginally improved compliance with
the interim rule during our subsequent site visit. However, NAVSEA Headquarters
contracting personnel significantly improved contract compliance during our subsequent
visit in the areas of approval and justification of cost-reimbursement contracts; but,
only minor improvement occurred in the other three areas. We reviewed contract files
during the subsequent review that included more information applicable to the interim
rule and less noncompliance overall in the five areas we assessed. However, NAVSEA
Headquarters personnel did not fully meet the interim rule on 10 of the 14 contracts.

QMCB contracting personnel also marginally improved compliance with the interim
rule during our subsequent site visit. However, QMCB personnel significantly improved
in the areas of justification that a cost-reimbursement award was required and that the
contractor had an adequate accounting system in place to tracking costs. That said, we
determined that 11 of the 15 contracts reviewed did not meet the interim rule regarding
approval one-level above the contracting officer and that 11 of the 15 contracts also
did not adequately document how the award may transition to firm-fixed price in the
future. See Table 7 for specific information on the subsequent contract review.

Table 7. Subsequent-Visit Contract Summary
                                      NAVSEA Headquarters               QMCB
 Total Contracts Reviewed                        14                       15

                             Contracts That Did Not Meet Interim Rule
     Approval                                     2                       11
     Justification                                2                       0
     Transition                                   6                       11
     Oversight                                    6                       6
     Accounting                                   6                       3

 Total Contracts With at Least                   10                       13
 One Noncompliant Element




                                                                                       DODIG-2014-092 │ 17
Finding



                 NAVSEA Headquarters and QMCB contracting officers improved compliance with the
                 interim rule in specific areas. We omitted recommendations to reflect areas where
                 significant improvement was noted during our subsequent review.           Implementing
                 the remaining recommendations should address the areas of noncompliance that we
                 identified during our subsequent review.


                 Firm-Fixed-Price Contracts Properly Classified
                 Contracting officials generally classified firm-fixed-price contracts correctly and did
                 not avoid the increased cost-reimbursement contract documentation requirements by
                 purposely miscoding contracts. We reviewed 188 contracts identified as firm-fixed-price
                 contracts in the Electronic Document Access system that were issued by contracting
                 personnel at the four Navy and Marine Corps sites. We reviewed some contracts that
                 contained a small cost-reimbursement portion within the contract, but if the contract
                 was predominantly firm-fixed price, we considered the award classified correctly.
                 We determined that 4 of the 188 contracts may have been improperly classified as
                 firm-fixed price and should have been treated as cost-reimbursement contracts.
                 However, we concluded that contracting personnel were properly classifying contracts
                 because of the small number of contracts we questioned.


                 Conclusion
                 Of the 170 contracts we initially reviewed, valued at $7.7 billion, contracting personnel
                 did not consistently implement the interim rule for 134 contracts, valued at about
                 $7.54 billion. SPAWAR–Charleston contracting personnel fully met the interim rule
                 on 26 contracts of the 36 fully compliant Navy and Marine Corps contracts. During a
                 subsequent review to NAVSEA Headquarters and QMCB, we determined that contracting
                 officers were issuing awards with increased compliance of the interim rule, but
                 opportunities to improve compliance still existed.   Contracting personnel continue to
                 issue cost-reimbursement contracts that may inappropriately increase the contracting
                 risks because cost-reimbursement contracts provide less incentive for contractors to
                 control costs. Contracting personnel will plan, issue, and oversee cost reimbursement
                 contracts more effectively by fully implementing the FAR revisions.




18 │ DODIG-2014-092
                                                                                                     Finding



Recommendations, Management Comments, and
Our Response
Recommendation 1
We recommend that the Deputy Director of Contracting Policy, Naval Sea Systems
Command Headquarters:

         a.	 Emphasize the importance of the Federal Acquisition Regulation
            revisions to contracting personnel for the use of cost-reimbursement
            contracts.


Naval Sea Systems Command Headquarters Comments
The Naval Sea Systems Command Deputy Inspector General, responding for the Deputy
Director of Contracting Policy, Naval Sea Systems Command Headquarters, agreed,
stating that the Contracting Policy Office will provide a notice to all contracting personnel
emphasizing the importance of documenting the decision on the type of contract in the
business clearance memorandum. The estimated completion date is June 30, 2014.

         b.	 Develop checklists and guides that can be used by contracting
            personnel regarding the extra planning, approval, and oversight of
            cost-reimbursement contracts.


Naval Sea Systems Command Headquarters Comments
The Naval Sea Systems Command Deputy Inspector General, responding for the
Deputy Director of Contracting Policy, Naval Sea Systems Command Headquarters,
agreed, stating that the Acquisition Planning Guides, Contract Handbook, and training
modules will be revised to reflect the updated acquisition regulations regarding
cost-reimbursement contracts. The estimated completion date is September 30, 2014.

         c.	 Promote the issuance of more hybrid contracts that contain multiple
            line items for the same service or item with different price structure so
            that contract type can be selected on each task or delivery order.


Naval Sea Systems Command Headquarters Comments
The Naval Sea Systems Command Deputy Inspector General, responding for the Deputy
Director of Contracting Policy, Naval Sea Systems Command Headquarters, agreed,
stating that an article on the use of hybrid contracts will be prepared and issued to the
acquisition workforce in their contract policy and program management competency
newsletters. The estimated completion date is September 30, 2014.


                                                                                           DODIG-2014-092 │ 19
Finding



                         d.	Establish better communication channels between the requiring
                            component,      contracting   personnel,    and    contract   monitors    to
                            more effectively identify opportunities to transition away from
                            cost-reimbursement contracts when possible.


                 Naval Sea Systems Command Headquarters Comments
                 The Naval Sea Systems Command Deputy Inspector General, responding for the Deputy
                 Director of Contracting Policy, Naval Sea Systems Command Headquarters, agreed,
                 stating that an article on the importance of transitioning from cost-reimbursement
                 contracts to firm-fixed-price contracts when possible will be prepared and issued to the
                 acquisition workforce in their contract policy and program management competency
                 newsletters. The estimated completion date is September 30, 2014.

                         e.	 Include on the contracting officer’s representative acceptance forms
                            a requirement that specifically states that the acknowledgement and
                            return of the signed letter is part of the duties in properly administering
                            the contract.


                 Naval Sea Systems Command Headquarters Comments
                 The Naval Sea Systems Command Deputy Inspector General, responding for the Deputy
                 Director of Contracting Policy, Naval Sea Systems Command Headquarters, agreed,
                 stating that they already have a policy in place that requires the contracting officer’s
                 representatives to acknowledge the appointment and return the letter to the contracting
                 officer. The Deputy Inspector General considers this recommendation implemented.

                         f.	 Include a section in the business clearance memorandum or similar
                            document to annotate the contracting officer’s analysis and data relied
                            on for the assessment of the contractor’s accounting system.


                 Naval Sea Systems Command Headquarters Comments
                 The Naval Sea Systems Command Deputy Inspector General, responding for the Deputy
                 Director of Contracting Policy, Naval Sea Systems Command Headquarters, agreed,
                 stating that the current business clearance memorandum template includes a section
                 for documenting the adequacy of the contractor’s accounting system. The Deputy
                 Inspector General also noted that the template was issued as part of the NAVSEA
                 Contracts Handbook and was updated in March 2013. The Deputy Inspector General
                 considers this recommendation implemented.




20 │ DODIG-2014-092
                                                                                                Finding



Our Response
Comments from the Deputy Inspector General addressed all specifics of the
recommendations, and no further comments are required.


Recommendation 2
We recommend that the Chief of the Contracting Office, Naval Supply
Center–San Diego:

        a.	 Emphasize the importance of the Federal Acquisition Regulation
           revisions to contracting personnel for the use of cost-reimbursement
           contracts.


Naval Supply Systems Command Comments
The Vice Commander, Naval Supply Systems Command, responding for the Chief of the
Contracting Office, Naval Supply Center–San Diego, agreed, stating that Naval Supply
Center¬–San Diego conducts monthly trainings incorporating Federal Acquisition
Regulation revisions.   They will provide training specifically on the interim rule
requirements. Additionally, they will update internal controls and quality assurance
programs to reflect the interim rule requirements. The estimated completion date is
June 30, 2014.


Our Response
Comments from the Vice Commander addressed all specifics of the recommendation,
and no further comment is required.

        b.	 Include on the contracting officer’s representative acceptance forms
           a requirement that specifically states that the acknowledgement and
           return of the signed letter is part of the duties in properly administering
           the contract.


Naval Supply Systems Command Comments
The Vice Commander, Naval Supply Systems Command, responding for the Chief of the
Contracting Office, Naval Supply Center–San Diego, agreed, stating that the contracting
officer’s representative tracking tool is being used by Naval Supply Center–San Diego.
The tool tracks the nomination, appointment, termination, and training of contracting




                                                                                      DODIG-2014-092 │ 21
Finding



                 officer’s representative. The appointment letter should be signed and returned to the
                 contracting officer within 10 days. The letter will be uploaded to the tool and a copy
                 will also be maintained in the contracting file.


                 Our Response
                 The contracting officer’s representative tool was not fully deployed for the entire
                 duration used for our contract sample. According to a March 21, 2011, memorandum
                 issued by the Secretary of Defense for Acquisition, Technology, and Logistics, full
                 deployment occurred in FY 2012. The series of contracts we reviewed that prompted
                 this recommendation were issued on August 24, 2011.

                 We agree that continued use of the contracting officer’s representative tool that
                 tracks nominations and acceptances will adequately address the intent of our
                 recommendation. Comments from the Vice Commander addressed all specifics of the
                 recommendation, and no further comment is required.

                          c.	 Include a section in the business clearance memorandum or similar
                            document to annotate the contracting officer’s analysis and data relied
                            on for the assessment of the contractor’s accounting system.


                 Naval Supply Systems Command Comments
                 The Vice Commander, Naval Supply Systems Command, responding for the Chief of
                 the Contracting Office, Naval Supply Center–San Diego agreed, stating that updated
                 Navy Marine Corps Acquisition Regulation Supplement requires the contracting officer
                 to determine the adequacy of the contractor’s accounting system for awards above
                 $150,000. For awards below that amount, the Vice Commander stated that the Naval
                 Supply Center–San Diego will revise internal controls and quality assurance assessments
                 to include a review of the accounting system.      The estimated completion date is
                 June 30, 2014.


                 Our Response
                 Comments from the Vice Commander addressed all specifics of the recommendations,
                 and no further comment is required.




22 │ DODIG-2014-092
                                                                                                 Finding



Recommendation 3
We recommend that Assistant Commander of Contracts, Marine Corps
Systems Command:

        a.	 Emphasize the importance of the Federal Acquisition Regulation
           revisions to contracting personnel for the use of cost-reimbursement
           contracts.


Marine Corps Systems Command Comments
The Marine Corps Systems Command Deputy Commander, Resource Management
responding for the Assistant Commander of Contracts, Marine Corps Systems Command,
agreed, stating that the contracts directorate will continue to conduct regular meetings
with lead contracting officers with an emphasis on communicating these changes to
the entire contracting directorate. They will also continue to issue regularly scheduled
newsletters discussing changes and updates to contracting guidance.

        b.	 Develop checklists and guides that can be used by contracting
           personnel regarding the extra planning, approval, and oversight of
           cost-reimbursement contracts.


Marine Corps Systems Command Comments
The Marine Corps Systems Command Deputy Commander, Resource Management
responding for the Assistant Commander of Contracts, Marine Corps Systems Command,
agreed, stating that the command uses a standard contract file checklist.           The
checklist is undergoing a revision and the new revision will include additional detail
required when documenting the type of contract selected. Additionally, contracting
personnel are required to complete a “Contract Documentation” course developed by
Marine Corps Systems Command. The participant guides are being revised to reflect
the additional detail required before issuing cost-reimbursement contracts. The updates
to the course guides are estimated to be complete by July 2014.

        c.	 Promote the issuance of more hybrid contracts that contain multiple
           line items for the same service or item with different price structure so
           that contract type can be selected on each task or delivery order.


Marine Corps Systems Command Comments
The Marine Corps Systems Command Deputy Commander, Resource Management
responding for the Assistant Commander of Contracts, Marine Corps Systems Command,



                                                                                       DODIG-2014-092 │ 23
Finding



                 agreed, stating that hybrid contracting will be identified as a best practice within the
                 contracting competency. The agency’s local contracting policies are scheduled to be
                 updated in 2015, and the update will incorporate our recommendation.

                          d.	Establish better communication channels between the requiring
                            component,        contracting   personnel,   and   contract   monitors    to
                            more effectively identify opportunities to transition away from
                            cost-reimbursement contracts when possible.

                 Marine Corps Systems Command Comments
                 The Marine Corps Systems Command Deputy Commander, Resource Management
                 responding for the Assistant Commander of Contracts, Marine Corps Systems
                 Command, agreed, stating that a command order originally issued in September 2009
                 will be revised in September 2014 to clearly require contracting personnel to be
                 involved in the acquisition planning processes, including the type of contract, and that
                 these processes include coordination with logistics, engineering, program management,
                 and finance personnel.       The Deputy Commander stated that the revised order
                 includes a form that requires signatures by two levels of contracting personnel to
                 ensure compliance with policy and regulation requirements. The estimated completion
                 target is September 2014.

                          e.	 Develop controls to ensure that a contracting officer’s representative is
                            assigned to each contract at contract award to meet the requirements
                            of the interim rule.

                 Marine Corps Systems Command Comments
                 The Marine Corps Systems Command Deputy Commander, Resource Management
                 responding for the Assistant Commander of Contracts, Marine Corps Systems Command,
                 agreed, stating that a command order is being developed to require a qualified
                 contracting officer’s representative to be assigned on all contracts that are not firm-
                 fixed price. The command order will also implement qualification requirements based
                 on contract type and complexity. Additionally, the command introduced a new training
                 course and is now using a tool to track the assignment and training of the contracting
                 officer’s representatives.    The Deputy Commander also noted that a contracting
                 officer’s representative coordinator position was established in November 2012. The




24 │ DODIG-2014-092
                                                                                                 Finding



coordinator is responsible for oversight of the assignment, training, reporting, and
performance standards of the program. The Assistant Commander of Contracts reviews
the Contracting Officer’s Representative files as part of an annual internal review. The
estimated completion target is September 2014.


Our Response
Comments from the Deputy Commander addressed all specifics of the recommendations,
and no further comment is required.




                                                                                       DODIG-2014-092 │ 25
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted work used as a basis for this report from February 2012 through
                 August 2012 under DoD IG Project No. D2012-D000CG-0121.000. In August 2012,
                 we decided to issue multiple reports as a result of those efforts. From August 2012
                 through August 2013, we primarily performed work on other reports in this series. In
                 August 2013, we announced this project, DoD IG Project No. D2013-D000CG-0211.000,
                 specifically for the Navy and Marine Corps contracts and conducted this performance
                 audit through May 2014. We completed both projects in accordance with generally
                 accepted government auditing standards. Those standards require that we plan and
                 perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                 basis for our findings and conclusions based on our audit objectives. We believe that
                 the evidence obtained provides a reasonable basis for our findings and conclusions
                 based on our audit objectives.

                 The criteria we applied to this audit included Federal Acquisition Regulation (FAR)
                 revisions required by section 864 of the Duncan Hunter National Defense Authorization
                 Act for Fiscal Year 2009 and implemented by the FAR interim rule, FAC 2005-50,
                 76 Federal Register 14542, “Proper Use and Management of Cost Reimbursement
                 Contracts” (2011).    We also reviewed the Small Business Innovation Research
                 (SBIR) policy directive.   The FAR sections updated by the interim rule include
                 FAR 1.602-2, “Responsibilities;” FAR 1.604, “Contracting Officers Representative;”
                 FAR 2.101, “Definitions;” FAR 7.103, “Agency-Head Responsibilities;” FAR 7.104,
                 “General Procedures;” FAR 7.105, “Contents of Written Acquisition Plans;” FAR 16.103,
                 “Negotiating Contract Types;” FAR 16.104, “Factors in Selecting Contract Types;”
                 FAR 16.301-2, “Application;” FAR 16.301-3, “Limitations;” FAR 42.302, “Contract
                 Administration Functions;” and FAR subpart 50.1, “Extraordinary Contractual Actions.”

                 In addition to this report, we issued separate reports for the Army and Air Force as
                 well as a report regarding the Missile Defense Agency and Defense Microelectronics
                 Activity’s implementation of the interim rule. We will also issue a separate summary
                 report. This is the fourth in a series of audit reports. This audit was required by the
                 FY 2009 National Defense Authorization Act, section 864, “Regulation on the Use of
                 Cost Reimbursement Contracts.” Our objective was to determine whether the Navy and
                 Marine Corps has complied with interim Federal Acquisition Regulation revisions on
                 the use of cost-reimbursement contracts.




26 │ DODIG-2014-092
                                                                                           Appendixes



To determine compliance with the interim rule, our methodology included reviewing
basic contract and task and delivery order files that varied slightly from the specific
interim rule requirements.      In cases where the interim rule required areas to be
documented in the acquisition plan, we expanded our review to the entire contract
file because, in many cases, the acquisition plan was written and approved before the
interim rule was issued. Additionally, we focused our audit to assess how contracting
personnel determined that adequate resources were available to monitor the award
by determining whether a COR or similar person was assigned to the contract at
issuance. We did not determine whether the person assigned had an appropriate
workload or was properly geographically located to monitor the award. We identified
the assignment of a COR on the contracts rather than testing the adequacy of the
COR assigned to the contract reviewed.      Additionally, we determined whether the
contracting officer documented that the contractor’s accounting system was adequate
at contract award and not during the entire period of contract performance as
required by the interim rule.


Universe and Sample Information
We used Federal Procurement Data System–Next Generation data to identify a
universe of cost-reimbursement, labor-hour, and time-and-materials contracts issued
by Defense agencies and activities from March 17, 2011, through February 29, 2012.
We included task and delivery orders issued after March 17, 2011, in our universe
even if the basic contract was issued before the interim ruling. We limited the review
to contracts valued at $150,000 or above. We removed contract modifications from
our universe because they were not new contract awards. We eliminated contracts
that were issued on General Service Administration contracts.         We queried all
cost-reimbursement contracts from March 17, 2011, through February 29, 2012. Our
universe consisted of 9,973 contract actions, valued at over $32 billion; this included
the value of all potential options and any firm-fixed-price portions of the contracts.
To meet the DoD Inspector General’s audit requirement in Section 864 of the
FY 2009 National Defense Authorization Act, we determined that we would review one
Defense agency and one Defense activity. We selected the four visited sites based on a
combination of cost-reimbursement award amounts and number of cost-reimbursement
contracts and task or delivery orders issued. The sites visited were: (1) Space and
Naval Warfare Systems Command (SPAWAR), Charleston, South Carolina; (2) Naval Sea
Systems Command (NAVSEA) Headquarters, Washington, District of Columbia; (3) Naval
Supply Systems Command (NAVSUP), San Diego, California; and (4) Quantico Marine
Corps Base (QMCB), Virginia.




                                                                                      DODIG-2014-092 │ 27
Appendixes



                 Our nonstatistical sample consisted of 50 contracts from each of the 4 Navy and
                 Marine Corps sites to total 200 contracts. We removed 30 contracts total from our
                 combined sample of 200 contracts because they were misclassified and were actually
                 firm-fixed-price contracts, not located at the site, or were actually issued on General
                 Service Administration contracts and not identified as such in the Federal Procurement
                 Data System–Next Generation.          We also reviewed a nonstatistical sample of
                 29 contracts issued by NAVSEA Headquarters and QMCB from February 1, 2013, through
                 July 31, 2013, with a total value of about $9.58 billion as part of a subsequent review
                 of contracts.


                 Review of Documentation and Interviews
                 We reviewed documentation maintained by the Navy and Marine Corps contracting
                 offices.    The documents reviewed included acquisition plans; business clearance
                 memorandums; determination and finding for contract type; COR designation letters;
                 COR training certificates; Defense Contract Audit Agency audit reports; and other
                 documentation included in the contract file to comply with the interim rule.          We
                 reviewed contract award documentation including basic contract files from FY 2002
                 through FY 2013. We interviewed personnel responsible for awarding contracts, as
                 well as quality assurance personnel, such as CORs, who were responsible for monitoring
                 the contracts.

                 At each site visited, we determined whether Navy and Marine Corps contracting
                 personnel implemented the interim rule by documenting:

                            •	 that the approval for the cost-reimbursement contract was at least one level
                              above the contracting officer;

                            •	 the justification for the use of cost-reimbursement, time-and-materials, or
                              labor-hour contracts;

                            •	 how the requirements under contract could transition to firm-fixed price in
                              the future;

                            •	 that Government resources were available to monitor the cost-reimbursement
                              contract; and

                            •	 whether the contractor had an adequate accounting system in place at
                              contract award.




28 │ DODIG-2014-092
                                                                                            Appendixes



We tested Navy and Marine Corps contracts to determine whether contracting
personnel were misclassifying cost-reimbursement contracts as firm-fixed-price
contracts.   We used the Federal Procurement Data System–Next Generation and
Electronic Document Access to review the firm-fixed-price contracts. We reviewed
between 40 and 50 firm-fixed-price contracts at each site to determine whether
contracts contained cost-reimbursement line items.           Although we used these
systems during our audit, we did not use them as a material basis for our findings,
recommendations, or conclusions.


Use of Computer-Processed Data
We did not rely on computer-processed data for this audit.


Use of Technical Assistance
The DoD Office of Inspector General Quantitative Methods Division (QMD) assisted with
the audit. We worked with QMD during our planning phase to determine the number
of sites per Service to visit and the number of contracts that should be reviewed at
each site. QMD suggested that we should visit three to five sites per Service and have a
nonstatistical sample of at least 30 contracts per site.


Prior Coverage
During the last 5 years, the Government Accountability Office, the Department of
Defense Inspector General, the Department of Transportation Inspector General,
the Department of Homeland Security Inspector General, the General Services
Administration Inspector General, and the National Aeronautics and Space
Administration Inspector General have issued eight reports discussing oversight of the
use of cost-reimbursement contracts. Government Accountability Office reports can
be accessed at www.gao.gov. Department of Defense Inspector General reports can be
accessed at www.dodig.mil. Department of Transportation Inspector General Reports
can be accessed at www.oig.dot.gov.       Department of Homeland Defense Inspector
General reports can be accessed at www.oig.dhs.gov. General Services Administration
Inspector General reports can be accessed at www.gsaig.gov. National Aeronautics and
Space Administration Inspector General reports can be accessed at www.oig.nasa.gov.




                                                                                       DODIG-2014-092 │ 29
Appendixes



                 GAO
                 Report No. GAO-09-921, “Contract Management: Extent of Federal Spending
                 Under Cost-Reimbursement Contracts Unclear and Key Controls Not Always Used,”
                 September 30, 2009


                 DoD IG
                 Report No. DODIG-2014-011, “Missile Defense Agency and Defense Microelectronics
                 Activity Use of Cost-Reimbursement Contracts,” November 22, 2013

                 Report No. DODIG-2013-120, “Army Needs Better Processes to Appropriately Justify
                 and Manage Cost-Reimbursement Contracts,” August 23, 2013

                 Report No. DODIG-2013-059, “Air Force Needs Better Processes to Appropriately Justify
                 and Manage Cost-Reimbursable Contracts,” March 21, 2013


                 DOT IG
                 Report No. ZA-2013-118, “DOT Does Not Fully Comply With Revised Federal
                 Acquisition Regulations on the Use and Management of Cost-Reimbursement Awards,”
                 August 5, 2013


                 DHS IG
                 Report No. OIG-12-133, “Department of Homeland Security Compliance with
                 the Federal Acquisition Regulation Revisions on Proper Use and Management of
                 Cost-Reimbursement Contracts,” September 28, 2012


                 GSA IG
                 Report No. A120052/Q/A/P12004, “Audit of GSA’s Cost-Reimbursement Contracts,”
                 March 30, 2012


                 NASA IG
                 Report No. IG-12-014, “Final Memorandum on NASA’s Compliance with Provisions
                 of the Duncan Hunter National Defense Authorization Act 2009–Management of
                 Cost-Reimbursement Contracts,” March 14, 2012




30 │ DODIG-2014-092
                                                   Appendixes




Appendix B
Federal Acquisition Circular 2005-50 Issued
March 16, 2011




                                              DODIG-2014-092 │ 31
Appendixes



                 Federal Acquisition Circular 2005-50 Issued
                 March 16, 2011 (cont’d)




32 │ DODIG-2014-092
                                                   Appendixes



Federal Acquisition Circular 2005-50 Issued
March 16, 2011 (cont’d)




                                              DODIG-2014-092 │ 33
Appendixes



                 Federal Acquisition Circular 2005-50 Issued
                 March 16, 2011 (cont’d)




34 │ DODIG-2014-092
                                                   Appendixes



Federal Acquisition Circular 2005-50 Issued
March 16, 2011 (cont’d)




                                              DODIG-2014-092 │ 35
    Appendixes



Appendix C
Contract Compliance With Interim Rule Requirements
(Initial Site Visits April–July 2012)
                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location     Approval         Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
    1   N65236-07-D-6868           663            SPAWAR            Yes                Yes            Yes          Yes          Yes            $495,000
    2   N65236-07-D-6875           108            SPAWAR            Yes                Yes            Yes          Yes          Yes           1,099,920
    3   N65236-07-D-7882            60            SPAWAR            Yes                Yes            Yes          Yes          Yes             578,700
    4   N65236-08-D-2833            62            SPAWAR            Yes                Yes            Yes          Yes          Yes           2,128,644
    5   N65236-08-D-2834           139            SPAWAR            Yes                Yes            No           Yes          Yes             499,988
    6   N65236-08-D-2835           170            SPAWAR            Yes                Yes            Yes          Yes          Yes             883,605
    7   N65236-08-D-3802           193            SPAWAR            Yes                Yes            Yes          Yes          Yes             695,000
    8   N65236-08-D-5803            84            SPAWAR            Yes                Yes            Yes          Yes          Yes           5,300,000
    9   N65236-08-D-6805           796            SPAWAR            Yes                Yes            Yes          Yes          Yes           2,000,000
   10   N65236-11-D-3839                          SPAWAR            Yes                Yes            Yes          No           Yes          10,938,068
   11   N65236-11-D-3847                          SPAWAR            Yes                Yes            Yes          Yes          Yes           3,944,424
   12   N65236-11-D-4800            2             SPAWAR            Yes                Yes            Yes          Yes          No              350,000
   13   N65236-11-D-4805                          SPAWAR            Yes                Yes            Yes          No           Yes          71,340,427
   14   N65236-11-D-4806                          SPAWAR            Yes                Yes            Yes          Yes          No           66,590,118
   15   N65236-11-D-6852            5             SPAWAR            Yes                Yes            Yes          Yes          No              428,869
   16   N65236-08-D-6809            41            SPAWAR            Yes                Yes            Yes          No           Yes             675,000
   17   N65236-05-D-6849            27            SPAWAR            Yes                Yes            No           Yes          No              938,553
   18   N65236-05-D-8836           305            SPAWAR            Yes                Yes            Yes          Yes          Yes           1,235,000
   19   N65236-06-D-7869            8             SPAWAR            Yes                Yes            Yes          Yes          Yes             630,375
Acronyms used throughout Appendix C are defined on the final page of Appendix C.




    36 │ DODIG-2014-092
                                                                                                                                                  Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location     Approval         Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
   20   N65236-06-D-7873            69            SPAWAR            Yes                Yes            Yes          Yes          Yes             373,675
   21   N65236-06-D-8848           1664           SPAWAR            Yes                Yes            Yes          Yes          Yes             177,850
   22   N65236-07-D-5877           126            SPAWAR            Yes                Yes            Yes          Yes          Yes             465,535
   23   N65236-07-D-5880            79            SPAWAR            Yes                Yes            Yes          Yes          Yes             216,345
   24   N65236-07-D-5883           345            SPAWAR            Yes                Yes            Yes          Yes          Yes          36,002,973
   25   N65236-07-D-5884           692            SPAWAR            Yes                Yes            Yes          Yes          Yes              17,716
   26   N65236-11-D-6853            1             SPAWAR            Yes                Yes            Yes          Yes          Yes           2,764,036
   27   N65236-12-C-3208                          SPAWAR            Yes                Yes            Yes          Yes          Yes             710,216
   28   N65236-12-D-3804                          SPAWAR            Yes                Yes            Yes          No           Yes           3,954,607
   29   N65236-12-D-4802            1             SPAWAR            Yes                Yes            Yes          Yes          Yes           2,995,070
   30    N65236-09-D2700           152            SPAWAR            Yes                Yes            No           Yes          Yes             195,010
   31   N65236-09-D-3806            24            SPAWAR            Yes                Yes            Yes          No           No              999,364
   32   N65236-09-D-5180            20            SPAWAR            Yes                Yes            Yes          Yes          Yes          13,044,729
   33   N65236-09-D-5821           110            SPAWAR            Yes                Yes            Yes          No           No              276,941
   34   N65236-09-D-6816            87            SPAWAR             No                No             No           Yes          No              820,326
   35   N65236-10-D-3810            33            SPAWAR            Yes                Yes            Yes          Yes          Yes             183,994
   36   N65236-10-D-3815           142            SPAWAR            Yes                Yes            Yes          Yes          Yes             552,289
   37   N65236-10-D-3818            14            SPAWAR            Yes                Yes            Yes          Yes          Yes             588,473
   38   N65236-10-D-3820            2             SPAWAR             No                No             No           Yes          No              728,713
   39   N65236-10-D-5829            5             SPAWAR            Yes                Yes            Yes          Yes          Yes             749,791
   40   N65236-10-D-5830            6             SPAWAR            Yes                Yes            Yes          Yes          Yes           1,706,274
Acronyms used throughout Appendix C are defined on the final page of Appendix C.



                                                                                                                                             DODIG-2014-092 │ 37
    Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location     Approval         Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
   41   N65236-10-D-6823            9             SPAWAR            Yes                Yes            Yes          No           No              244,956
   42   N65236-11-D-3837                          SPAWAR            Yes                Yes            Yes          No           No           99,900,000
        SPAWAR Subtotal:                                             40                 40            37           34           32         $338,420,574
   43   N00024-09-D-4208            43            NAVSEA            Yes                Yes            Yes          Yes          Yes             167,526
   44   N00023-11-C-5106                          NAVSEA            Yes                Yes            Yes          Yes          No          228,155,587
   45   N00024-11-C-4401                          NAVSEA            Yes                Yes            Yes          No           Yes          73,238,387
   46   N00024-12-D-4120                          NAVSEA            Yes                No             No           No           No          215,000,000
   47   N00024-11-C-4408                          NAVSEA            Yes                Yes            No           No           No          287,456,532
   48   N00024-11-C-5213                          NAVSEA             No                Yes            No           Yes          Yes           9,631,708
   49   N00024-11-E-4310                          NAVSEA             No                Yes            No           No           No           29,000,000
   50   N00024-11-G-4226            2             NAVSEA             No                No             No           No           No              499,911
   51   N00024-12-C-2107                          NAVSEA            Yes                Yes            Yes          No           Yes         583,025,557
   52   N00024-12-C-2400                          NAVSEA            Yes                Yes            No           Yes          Yes         134,470,993
   53   N00024-12-C-5102                          NAVSEA            Yes                No             No           No           Yes          32,894,445
   54   N00024-04-D-4066          EH09            NAVSEA            Yes                Yes            Yes          No           No          169,686,794
   55   N00024-07-D-4130           962            NAVSEA            Yes                No             Yes          No           No              150,000
   56   N00024-11-D-4115            17            NAVSEA            Yes                Yes            No           No           No              250,000
   57   N00024-11-D-4229                          NAVSEA            Yes                Yes            Yes          No           No        1,503,446,270
   58   N00024-11-C-4000                          NAVSEA             No                No             No           No           Yes             999,581
   59   N00024-11-C-4005                          NAVSEA             No                No             No           No           Yes             999,771
   60   N00024-11-C-4010                          NAVSEA             No                No             No           No           Yes             999,882
   61   N00024-11-C-4014                          NAVSEA             No                No             No           No           Yes             998,816
Acronyms used throughout Appendix C are defined on the final page of Appendix C.


    38 │ DODIG-2014-092
                                                                                                                                                   Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location     Approval         Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
   62   N00024-11-C-4017                          NAVSEA             No                No             No           No           Yes             999,979
   63   N00024-11-C-4003                          NAVSEA             No                No             No           No           Yes             999,919
   64   N00024-11-C-4129                          NAVSEA             No                No             No           No           Yes             999,941
   65   N00024-11-C-4138                          NAVSEA             No                No             No           No           Yes             749,940
   66   N00024-11-C-4165                          NAVSEA             No                No             No           No           Yes             749,034
   67   N00024-11-C-4173                          NAVSEA             No                No             No           No           Yes             999,997
   68   N00024-11-C-4180                          NAVSEA             No                No             No           No           Yes             990,809
   69   N00024-11-C-4181                          NAVSEA             No                No             No           No           Yes             747,814
   70   N00024-11-C-4184                          NAVSEA             No                No             No           No           Yes             749,299
   71   N00024-11-C-4188                          NAVSEA             No                No             No           No           Yes             996,699
   72   N00024-12-C-4113                          NAVSEA             No                No             No           No           Yes             999,836
   73   N00024-12-C-4134                          NAVSEA             No                No             No           No           Yes             999,652
   74   N00024-02-D-6604           838            NAVSEA            Yes                Yes            Yes          Yes          Yes             444,000
   75   N00024-07-G-5433            3             NAVSEA             No                No             No           Yes          No              625,000
   76   N00024-09-D-5212            43            NAVSEA            Yes                Yes            Yes          No           No              849,458
   77   N00024-10-D-4203            16            NAVSEA            Yes                Yes            Yes          Yes          No             2,206,039
   78   N00024-11-C-4224                          NAVSEA             No                No             No           Yes          No           23,093,493
   79   N00024-11-C-4407                          NAVSEA            Yes                Yes            No           No           No          228,453,555
   80   N00024-11-D-4002                          NAVSEA            Yes                Yes            Yes          No           Yes         215,000,000
   81   N00024-12-D-6402            1             NAVSEA            Yes                Yes            Yes          No           Yes             173,106
         NAVSEA Subtotal:                                            18                 17            12            8           25        $3,752,899,330

Acronyms used throughout Appendix C are defined on the final page of Appendix C.



                                                                                                                                              DODIG-2014-092 │ 39
    Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location    Approval          Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
  82    N00244-11-C-0039                          NAVSUP            Yes                Yes            Yes          Yes          No            6,807,989
  83    N00244-08-D-0034            61            NAVSUP            Yes                Yes            No           No           No              225,723
  84    N00244-08-D-0014            5             NAVSUP            Yes                Yes            Yes          Yes          No              284,636
  85    N00244-08-D-0036            11            NAVSUP            Yes                Yes            Yes          No           No              642,599
  86    N00178-04-D-4143          NW02            NAVSUP            Yes                Yes            Yes          Yes          Yes          19,991,228
  87    N00178-05-D-4364          NW02            NAVSUP            Yes                Yes            Yes          Yes          Yes          16,799,496
  88    N00178-04-D-4065          NW01            NAVSUP            Yes                Yes            Yes          Yes          Yes           8,615,066
  89    N00244-11-C-0035                          NAVSUP            Yes                No             No           Yes          Yes          30,294,986
  90    N00244-06-D-0049            15            NAVSUP            Yes                Yes            Yes          No           No              938,474
  91    N00244-06-D-0049            16            NAVSUP            Yes                Yes            Yes          No           No              879,428
  92    N00244-11-C-0045                          NAVSUP            Yes                No             No           Yes          Yes           1,009,897
  93    N00244-11-C-0020                          NAVSUP            Yes                No             No           No           No           57,740,641
  94    N00244-11-C-0034                          NAVSUP            Yes                Yes            No           Yes          Yes          13,706,230
  95    N00244-11-C-0032                          NAVSUP            Yes                Yes            Yes          Yes          Yes           4,722,169
  96    N00244-11-C-0019                          NAVSUP            No                 No             No           No           Yes             664,514
  97    N00244-11-D-0019                          NAVSUP            Yes                Yes            Yes          No           No           57,287,763
  98    N00244-11-D-0020                          NAVSUP            Yes                Yes            Yes          No           Yes          57,740,641
  99    N00244-11-D-0023                          NAVSUP            Yes                Yes            Yes          No           Yes          58,221,752
 100    N00244-11-D-0024                          NAVSUP            Yes                Yes            Yes          No           Yes          65,707,598
 101    N00244-11-D-0026                          NAVSUP            Yes                Yes            Yes          No           Yes         228,863,395
 102    N00244-11-D-0028                          NAVSUP            Yes                Yes            Yes          No           Yes         265,152,343
 103    N00244-11-D-0029                          NAVSUP            Yes                Yes            Yes          No           Yes         224,245,524
Acronyms used throughout Appendix C are defined on the final page of Appendix C.


    40 │ DODIG-2014-092
                                                                                                                                                  Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location    Approval          Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
 104    N00244-11-D-0030                          NAVSUP            Yes                Yes            Yes          No           Yes         230,668,939
 105    N00244-11-D-0031                          NAVSUP            Yes                Yes            Yes          No           No          212,837,851
 106    N00244-11-D-0032                          NAVSUP            Yes                Yes            Yes          No           Yes         224,855,435
 107    N00244-11-D-0033                          NAVSUP            Yes                Yes            Yes          No           Yes         233,370,543
 108    N00244-11-D-0034                          NAVSUP            Yes                Yes            Yes          No           Yes         260,157,477
 109    N00244-11-D-0036                          NAVSUP            Yes                Yes            Yes          No           Yes         215,736,235
 110    N00244-11-D-0037                          NAVSUP            Yes                Yes            Yes          No           Yes         160,236,150
 111    N00244-11-D-0038                          NAVSUP            Yes                Yes            Yes          No           No          128,020,213
 112    N00244-11-D-0039                          NAVSUP            Yes                Yes            Yes          No           Yes         143,251,780
 113    N00244-11-D-0041                          NAVSUP            Yes                Yes            Yes          No           Yes         130,104,141
 114    N00244-11-D-0042                          NAVSUP            Yes                Yes            Yes          No           Yes         131,631,009
 115    N00244-11-D-0045                          NAVSUP            Yes                Yes            Yes          No           Yes         289,841,242
 116    N00244-12-D-0005                          NAVSUP            Yes                Yes            Yes          Yes          No              504,375
 117    N00244-12-D-0006                          NAVSUP            Yes                Yes            Yes          Yes          No              480,375
 118    N00244-12-D-0008                          NAVSUP            Yes                No             No           Yes          Yes          23,239,315
 119    N00244-12-D-0008            3             NAVSUP            Yes                No             No           Yes          Yes             937,199
 120    N00244-12-D-0008            4             NAVSUP            Yes                No             No           Yes          Yes             712,193
 121    N00178-04-D-4092          NW01            NAVSUP            Yes                No             No           Yes          Yes          24,675,692
 122    N00178-10-D-6117          NW01            NAVSUP            Yes                Yes            Yes          Yes          Yes           4,972,857
 123    N00244-07-D-0039            8             NAVSUP            Yes                Yes            Yes          Yes          No            1,483,611
 124    N00244-08-D-0030            4             NAVSUP            Yes                Yes            Yes          Yes          Yes           1,966,038
 125    N00244-08-D-0039           341            NAVSUP            Yes                Yes            Yes          Yes          No              462,364
Acronyms used throughout Appendix C are defined on the final page of Appendix C.


                                                                                                                                             DODIG-2014-092 │ 41
    Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location    Approval          Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
 126    N00244-08-D-0039           344            NAVSUP            Yes                Yes            Yes          Yes          No              223,625
 127    N00244-08-D-0039           361            NAVSUP            Yes                Yes            Yes          Yes          No              151,410
 128    N00244-09-D-0018            21            NAVSUP            Yes                No             No           Yes          Yes             905,621
 129    N00244-09-D-0018            23            NAVSUP            Yes                No             No           Yes          Yes             307,263
 130    N00244-09-D-0018            22            NAVSUP            Yes                No             No           Yes          Yes             884,375
 131    N00244-09-D-0023            2             NAVSUP            Yes                Yes            Yes          Yes          Yes            3,883,124
        NAVSUP Subtotal:                                             49                 39            37           25           34        $3,547,042,544
 132    M67854-08-D-2007            19             QMCB             Yes                Yes            No           No           No              341,309
 133    M67854-06-D-7009            22             QMCB             Yes                Yes            No           No           No              337,252
 134    M67854-11-C-6534                           QMCB             No                 Yes            No           No           Yes            1,699,627
 135    M67854-11-D-6004            1              QMCB             No                 Yes            No           Yes          Yes             335,489
 136    M67854-11-D-6004            4              QMCB             No                 Yes            No           Yes          Yes             442,617
 137    M67854-11-D-6004            5              QMCB             No                 Yes            No           Yes          Yes             972,354
 138    M67854-11-D-2219            2              QMCB             Yes                No             No           No           Yes             834,842
 139    M67854-11-D-2219            3              QMCB             Yes                No             No           No           Yes             374,423
 140    M67854-11-D-2219            4              QMCB             Yes                No             No           Yes          Yes             399,723
 141    M67854-04-D-5016           123             QMCB             No                 Yes            Yes          No           Yes             170,160
 142    M67854-07-D-2057            20             QMCB             Yes                No             No           No           No              243,169
 143    M67854-07-D-2057            21             QMCB             Yes                No             No           No           No              150,929
 144    M67854-08-D-6040           182             QMCB             Yes                Yes            Yes          Yes          No              403,327
 145    M67854-08-D-6040           191             QMCB             Yes                Yes            Yes          Yes          No              229,996
 146    M67854-08-D-6040           220             QMCB             Yes                Yes            Yes          Yes          No              399,107
Acronyms used throughout Appendix C are defined on the final page of Appendix C.


    42 │ DODIG-2014-092
                                                                                                                                                  Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location    Approval          Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
 147    M67854-08-D-6040           227             QMCB             Yes                Yes            Yes          Yes          No            1,913,414
 148    M67854-08-D-6040           235             QMCB             Yes                Yes            Yes          Yes          No              935,956
 149    M67854-11-C-6541                           QMCB             No                 Yes            No           No           Yes             684,132
 150    M67854-11-C-6537                           QMCB             No                 Yes            No           No           Yes             750,449
 151    M67854-11-C-6538                           QMCB             No                 Yes            No           No           Yes             749,978
 152    M67854-11-C-6540                           QMCB             No                 Yes            No           No           Yes             748,596
 153    M67854-12-C-0025                           QMCB             Yes                Yes            Yes          Yes          Yes           9,900,000
 154    M67854-11-C-6505                           QMCB             No                 Yes            Yes          No           Yes             749,569
 155    M67854-11-C-6519                           QMCB             No                 Yes            Yes          No           No              824,419
 156    M67854-11-C-6533                           QMCB             No                 Yes            Yes          No           No              749,756
 157    M67854-11-C-6535                           QMCB             No                 No             No           No           Yes             728,262
 158    M67854-11-C-6539                           QMCB             No                 Yes            Yes          No           Yes             852,736
 159    M67854-11-C-6542                           QMCB             No                 Yes            Yes          No           Yes             749,999
 160    M67854-08-D-2007            20             QMCB             Yes                Yes            Yes          Yes          No            2,404,342
 161    M67854-08-D-2007            21             QMCB             Yes                Yes            Yes          Yes          No            1,300,000
 162    M67854-10-D-2200            12             QMCB             Yes                No             Yes          Yes          No            5,245,265
 163    M67854-10-D-2200            18             QMCB             Yes                No             Yes          Yes          No            3,994,172
 164    M67854-10-D-2200            19             QMCB             Yes                No             Yes          Yes          No              413,371
 165    M67854-10-D-2200            22             QMCB             Yes                No             Yes          Yes          Yes           7,917,369
 166    M67854-10-D-2200            24             QMCB             Yes                No             Yes          Yes          Yes           3,454,113
 167    M67854-10-D-2203            14             QMCB             Yes                No             Yes          Yes          Yes           1,847,583
 168    M67854-10-D-2203            15             QMCB             Yes                No             Yes          No           Yes             661,100
Acronyms used throughout Appendix C are defined on the final page of Appendix C.


                                                                                                                                             DODIG-2014-092 │ 43
    Appendixes



Contract Compliance With Interim Rule Requirements (cont’d)
(Initial Site Visits April–July 2012)

                              Order Number                                                                                   Accounting   Not-To-Exceed
         Contract Number                        Site Location    Approval          Justification   Transition   Monitoring
                              (if applicable)                                                                                  System       CR Value
 169    M67854-10-D-2203            17             QMCB             Yes                No             Yes          No           Yes            1,987,855
 170    M67854-10-D-2203            19             QMCB             Yes                No             Yes          No           Yes             200,000
         QMCB Subtotal:                                              24                 24            23           18           23          $57,096,758
            Total of All
            Compliant                                               131                120            109          85           114
            Contracts:
            Total of All
          Non-Compliant                                              39                 50            61           85           56
             Contracts
          Total CR Value
          of All Contracts                                                                                                                $7,695,459,207
             Reviewed

Legend
CR: 	     Cost Reimbursement
NAVSEA: 	 Naval Sea Systems Command Headquarters, Washington, D.C.
NAVSUP: 	Naval Supply Fleet Systems Center–San Diego
QMCB: 	 Quantico Marine Corps Base, Virginia
SPAWAR: 	 Space and Naval Warfare Systems Command–Charleston




Acronyms used throughout Appendix C are defined on the final page of Appendix C.


    44 │ DODIG-2014-092
                                                                                                                                                   Appendixes




Appendix D
Contract Compliance With Interim Rule Requirements – Supplemental
(Updated September 2013 Site Visit)
                             Order Number                                                                                    Accounting   Not-To-Exceed
         Contract Number                       Site Location     Approval          Justification   Transition   Monitoring
                             (if applicable)                                                                                   System       CR Value
    1   N00024-13-C-2108                         NAVSEA             Yes                Yes            Yes          No           Yes       $2,575,016,400
    2   N00024-13-C-6264                         NAVSEA             Yes                No             No           No           No           42,484,260
    3   N00024 13-C-4052                         NAVSEA             No                 No             No           Yes          No              488,629
    4   N00024-13-C-4055                         NAVSEA             No                 Yes            No           Yes          Yes            1,029,447
    5   N00024-13-C-5207                         NAVSEA             Yes                Yes            Yes          Yes          Yes          14,546,923
    6   N00024-13-C-5202                         NAVSEA             Yes                Yes            Yes          Yes          Yes            5,939,194
    7   N00024-13-C-6402                         NAVSEA             Yes                Yes            No           Yes          No           47,034,172
    8   N00024-13-D-6400                         NAVSEA             Yes                Yes            Yes          Yes          Yes        4,904,853,263
    9   N00024-13-C-2112                         NAVSEA             Yes                Yes            No           No           No          745,000,000
  10    N00024-13-C-5132                         NAVSEA             Yes                Yes            No           No           Yes         304,357,494
  11    N00024-13-C-5225                         NAVSEA             Yes                Yes            Yes          Yes          Yes         314,510,692
  12    N00024-13-C-5403                         NAVSEA             Yes                Yes            Yes          No           Yes         316,538,398
  13    N00024-13-C-6300                         NAVSEA             Yes                Yes            Yes          No           No           52,947,551
  14    N00024-13-D-4100                         NAVSEA             Yes                Yes            Yes          Yes          No          250,000,000
        NAVSEA Subtotal:                                            12                  12             8            8            8        $9,574,746,423
  15    M67854-10-D-2103            8             QMCB              Yes                Yes            Yes          No           No              160,000
  16    M67854-08-D-2007           24             QMCB              Yes                Yes            No           Yes          Yes             449,086
  17    M67854-08-D-2007                          QMCB              No                 Yes            No           No           No              600,017
  18    M67854-13-C-0221                          QMCB              No                 Yes            No           No           Yes             749,194


Acronyms used throughout Appendix D are defined on the final page of Appendix D.


                                                                                                                                              DODIG-2014-092 │ 45
    Appendixes



Contract Compliance With Interim Rule Requirements – Supplemental (cont’d)
(Updated September 2013 Site Visit)

                             Order Number                                                                           Accounting   Not-To-Exceed
         Contract Number                       Site Location   Approval   Justification   Transition   Monitoring
                             (if applicable)                                                                          System       CR Value
  19    M67854-13C-6522                           QMCB           No           Yes            No           Yes          Yes             749,500
  20    M67854-13-C-6504                          QMCB           No           Yes            No           Yes          Yes             749,780
  21    M67854-10-D-2200           31             QMCB           Yes          Yes            Yes          Yes          Yes             888,685
  22    M67854-13-C-0225                          QMCB           No           Yes            No           Yes          Yes             475,711
  23    M67854-13-C-6585                          QMCB           No           Yes            No           Yes          Yes             977,946
  24    M67854-13-C-0222                          QMCB           No           Yes            No           No           No              977,696
  25    M67854-13-C-6525                          QMCB           No           Yes            No           No           Yes             973,982
  26    M67854-13-C-6584                          QMCB           No           Yes            No           Yes          Yes            1,398,955
  27    M67854-10-D-2200           32             QMCB           Yes          Yes            Yes          Yes          Yes            2,496,521
  28    M67854-13-C-6580                          QMCB           No           Yes            Yes          No           No             2,974,597
  29    M67854-13-C-6582                          QMCB           No           Yes            No           Yes          Yes          2,999,8181

         QMCB Subtotal:                                              4         15             4            9           12          $17,621,488
            Total of All
            Compliant                                            16            27            12           17           20
            Contracts:
            Total of All
          Non-Compliant                                          13            2             17           12            9
             Contracts
          Total CR Value
          of All Contracts                                                                                                       $9,592,367,911
             Reviewed

Legend
CR: 	     Cost Reimbursement
NAVSEA: 	 Naval Sea Systems Command Headquarters, Washington, D.C.
QMCB: 	 Quantico Marine Corps Base, Virginia



    46 │ DODIG-2014-092
                                     Management Comments




Management Comments
Naval Sea Systems Command Comments




                                           DODIG-2014-092 │ 47
Management Comments



                 Naval Sea Systems Command Comments (cont’d)




48 │ DODIG-2014-092
                                              Management Comments



Naval Sea Systems Command Comments (cont’d)




                                                    DODIG-2014-092 │ 49
Management Comments



                 Naval Sea Systems Command Comments (cont’d)




50 │ DODIG-2014-092
                                        Management Comments



Naval Supply Systems Command Comments




                                              DODIG-2014-092 │ 51
Management Comments



                 Naval Supply Systems Command Comments (cont’d)




52 │ DODIG-2014-092
                                            Management Comments



Naval Supply Systems Command Comments (cont’d)




                                                  DODIG-2014-092 │ 53
Management Comments



                 Naval Supply Systems Command Comments (cont’d)




54 │ DODIG-2014-092
                                        Management Comments



Marine Corps Systems Command Comments




                                              DODIG-2014-092 │ 55
Management Comments



                 Marine Corps Systems Command Comments (cont’d)




56 │ DODIG-2014-092
                                           Management Comments



Marine Corps Systems Command Comments (cont’d)




                                                 DODIG-2014-092 │ 57
Management Comments



                 Marine Corps Systems Command Comments (cont’d)




58 │ DODIG-2014-092
                                                  Acronyms and Abbreviations




Acronyms and Abbreviations
    COR Contracting Officer’s Representative
     FAC Federal Acquisition Circular
     FAR Federal Acquisition Regulations
 NAVSEA Naval Sea Systems Command
 NAVSUP Naval Supply Systems Command
  QMCB Quantico Marine Corps Base
    SBIR Small Business Innovation Research
 SPAWAR Space and Naval Warfare Systems Command




                                                             DODIG-2014-092 │ 59
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
